JULY 18, 2007
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 NASA COULD IMPROVE CONTROLS AND LOWER THE
  COSTS OF THE INTERGOVERNMENTAL PERSONNEL
            ACT MOBILITY PROGRAM




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-07-019 (ASSIGNMENT NO. A-06-018-00)
Final report released by:


   signed

Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

DG           Desk Guide
FTR          Federal Travel Regulation
HQ           Headquarters
HR           Human Resource
IPA          Intergovernmental Personnel Act
NFTRS        NASA Federal Travel Regulation Supplement
NPR          NASA Procedural Requirements
OA           Office of Audits
OIG          Office of Inspector General
OPM          Office of Personnel Management


                                                         REPORT NO. IG-07-019
JULY 18, 2007



                                                                              OVERVIEW

          NASA COULD IMPROVE CONTROLS AND LOWER THE
           COSTS OF THE INTERGOVERNMENTAL PERSONNEL
                     ACT MOBILITY PROGRAM

                                                                                The Issue

   Under the authority of the Intergovernmental Personnel Act (IPA), Federal agencies such
   as NASA can temporarily assign personnel to or from eligible non-Federal organizations
   for the mutual benefit of each organization. The IPA Mobility Program provides a source
   of technical and management expertise to all types of NASA missions and functions.
   The overall objective of the audit was to assess the adequacy of internal controls over
   NASA’s IPA Mobility Program.

   Between June 2005 and May 2006, NASA had 145 active IPA agreements with an
   estimated cost of $35.7 million. NASA IPA costs include salary, fringe benefits, travel,
   extended per diem (subsistence) or limited relocation costs, consultant fee loss, and other
   miscellaneous costs. The agreements are authorized at each Center (Headquarters is
   considered a Center for IPA agreement purposes). Of the 145 agreements, 24 are for
   NASA employees assigned to non-Federal organizations. We reviewed the management
   of the other 121 agreements, for employees assigned to NASA from non-Federal
   organizations, with an estimated cost of $32.3 million (about $20.5 million annually).
   We performed audit work at five NASA Centers, including NASA Headquarters. The
   five Centers authorized about 88 percent of the 121 active IPA assignments from non-
   Federal organizations. Details of the audit scope and methodology are in Appendix A.

                                                                                    Results

   NASA’s internal controls for evaluating and approving costs associated with the IPA
   Mobility Program were inadequate to ensure that expenditures of about $20.5 million
   annually were properly recorded and accounted for. In addition, NASA did not adopt
   practices used by other Federal agencies to lower IPA Mobility Program costs. We
   estimate that NASA might be able to avoid costs of about $4 million to $12.6 million
   over 3 years by adopting practices that require cost-sharing, disallow indirect costs, and
   place a time limit on extended per diem.

   Inadequate Controls over IPA Expenditures. NASA’s evaluation of IPA agreement
   costs was inadequate because NASA’s IPA policy (NASA Procedural Requirements
   3300.1A, “Appointment of Personnel To/From NASA,” April 8, 2005, and its
   implementing guidance, NASA Desk Guide) did not require approving officials to obtain
   supporting documentation for invoiced costs. The Desk Guide (DG-11) provides


REPORT NO. IG-07-019
                                                                                        OVERVIEW

     guidance and procedures on initiating, processing, and approving IPA agreements, but it
     does not provide guidance to ensure that IPA expenditures were supported, reasonable,
     and allowable.

     NASA personnel did not obtain any supporting documentation for invoiced salary and
     benefit costs or review these costs for consistency with the agreements. Therefore, we
     selected a sample of 21 invoices and requested supporting documentation for the
     invoiced costs from the IPA assignees’ home institutions. We found that home
     institutions did not routinely maintain support for invoiced costs. For example, at
     Marshall Space Flight Center, one university billed NASA for an IPA assignee’s salary
     plus an estimate for the assignee’s pay for vacation and sick leave. However, we found
     that this university’s policy was to include these benefits in the salary amount. NASA’s
     payment of about $30,000 for the estimated vacation and sick leave pay was a duplication
     of what was already included in the salary.

     On two invoices for separate IPA assignees, a non-profit institution billed NASA $10,500
     for benefit costs that were applied to extended per diem costs. However, the two
     assignees’ respective IPA agreements stipulate that benefit costs only be applied to
     salary. In addition, the home institution submitted a single amount on each invoice,
     combining all costs (both fixed and variable), giving NASA no way of evaluating the
     consistency of actual costs as compared to the IPA agreement.

     NASA also lacked procedures to validate the occurrence and allowability of variable IPA
     costs (travel, extended per diem, and other expenses such as supplies). For variable
     costs, IPA home institutions submitted invoices to NASA without supporting
     documentation, travel vouchers, or receipts for lodging, transportation, and supplies. We
     found that Ames Research Center complied with NASA travel policies. However, the
     other Centers that we visited—Headquarters, Goddard Space Flight Center, Johnson
     Space Center, and Marshall Space Flight Center—did not comply with NASA travel
     policies; personnel at these Centers had not verified that invoiced costs had actually been
     incurred or that the costs were in compliance with NASA travel policies. Specifically,
     these four Centers did not require the use of Travel Manager to authorize and process
     IPA assignee travel.

     During our audit, we found that NASA had paid monthly invoices that included travel
     costs as a fixed cost. By paying a fixed monthly amount, NASA had no assurance that
     travel had occurred and, if so, had complied with the Federal Travel Regulation (FTR).
     We also obtained supporting documentation from home institutions for invoiced travel
     costs that showed payment for first-class airfares and per diem in excess of the rates
     prescribed by the General Services Administration. We found no explanation for these
     costs, which should be justified per the FTR. Of the 21 invoices in our sample,
     13 invoices had extended per diem costs. None of the 13 invoices with extended per
     diem costs were processed using Travel Manager. Of the 13 invoices, 10 did not include
     any receipts, as required by NASA travel policies. With no receipts, the costs cannot be
     validated or quantified.




ii                                                                          REPORT NO. IG-07-019
OVERVIEW

   NASA Might Be Able to Lower Its IPA Mobility Program Costs. We also found that
   NASA might be able to lower its costs of the IPA Mobility Program by adopting
   practices that other Federal agencies established in their implementation of Office of
   Personnel Management (OPM) guidelines. We selected six Federal agencies, each with a
   scientific research program, and reviewed their IPA guidance. We found that the six
   agencies had cost control practices that followed OPM guidelines, and we identified three
   specific practices that we believe might lower IPA costs if NASA adopted them: require
   cost-sharing, disallow indirect costs, and place time limits on extended per diem.

   OPM guidelines and the Act specify that agreements should be made for the mutual
   benefit of participating organizations. OPM guidelines also state that cost-sharing
   arrangements should be based on the extent to which the participating organizations
   benefit from the assignment. The larger share of the costs should be absorbed by the
   organization that benefits most from the assignment. NASA DG-11 states that NASA
   and the non-Federal entity must determine the percentage of costs each organization will
   pay. For the NASA IPA agreements that we reviewed, there was no cost-sharing and
   NASA paid the IPA home institutions 100 percent of their costs.

   During our review, we found that two agencies, the Department of Energy and the
   National Science Foundation, negotiate cost-sharing with participating IPA home
   institutions. Both agencies require justification for cost-sharing of less than 15 percent.
   We estimate that 1 percent cost-sharing could result in NASA avoiding costs of about
   $200,000 a year; with 15 percent cost-sharing, that amount could be as much as
   $3 million annually.

   OPM guidelines state that agencies should not reimburse indirect administrative costs
   associated with IPA agreements. All six agencies do not allow indirect costs to be
   included in their IPA agreements. However, DG-11 allows indirect costs to be
   reimbursed if requested by the IPA assignees’ home institutions. We estimate that
   NASA could avoid costs of about $410,000 a year by eliminating its practice of
   reimbursing IPA home institutions for indirect administrative costs.

   OPM guidelines state that extended per diem is meant for short assignments and that
   agencies should not authorize it for an IPA assignment expected to last more than 1 year
   or for an indefinite period. Our review found that three agencies limited extended per
   diem to a maximum of 2 years in implementing OPM guidelines. NASA DG-11,
   section VI.C, states that extended per diem should not normally be authorized for
   assignments that go beyond a year. This is vague compared to the OPM guidelines and
   does not set a clear time limit, as have other Federal agencies. Lacking such a control,
   NASA can pay this cost for the duration of an assignment, which can last 6 years. For
   example, one IPA assignee at NASA Headquarters has an IPA agreement that authorizes
   extended per diem for more than 5 years. We estimate NASA’s cost for this assignee’s
   per diem to be about $214,000, or about $40,000 per year.

   Of the 121 IPA agreements for assignees from non-Federal organizations, 56 were
   authorized by NASA Headquarters. Of those 56, we identified 18 that included extended
   per diem for more than 1 year. As a result, we estimate that NASA could avoid costs of


REPORT NO. IG-07-019                                                                             iii
                                                                                         OVERVIEW

     $720,000 annually and $2,160,000 over 3 years if it followed OPM guidelines and other
     agencies’ practices.

     Management Action

     We recommended that the Assistant Administrator for Human Capital Management
     revise IPA Mobility Program guidance to establish procedures for reviewing and
     supporting IPA invoices and to require compliance with NASA travel policy. We
     recommended that Marshall’s Chief Financial Officer initiate actions to recoup the
     $30,000 duplicate payment. The Assistant Administrator should consider whether
     establishing policies and procedures for cost-sharing, eliminating indirect costs, and
     placing a time limit on extended per diem would be beneficial.

     In response to a draft of this report, the Assistant Administrator for Human Capital
     Management and Marshall generally concurred (see Appendix D for the full text of
     management’s comments). The Assistant Administrator nonconcurred with eliminating
     indirect costs and partially concurred with establishing procedures for cost-sharing and
     limiting extended per diem. However, we consider management’s comments to be
     responsive to our recommendations. The changes to IPA guidance proposed by
     management could result in potential monetary benefits of more than $6.9 million over
     the next 3 years ($2.3 million annually).




iv                                                                          REPORT NO. IG-07-019
JULY 18, 2007




                                                         CONTENTS

   INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 3

   RESULTS
      Finding A: Inadequate Controls to Safeguard NASA IPA
                   Expenditures and Ensure Compliance ____________ 4
      Finding B: NASA Might Be Able to Lower Its IPA
                   Mobility Program Costs ______________________ 11

   APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls _____________________________ 18
      Prior Coverage_______________________________________ 18

   APPENDIX B
      IPA Process Flowchart _________________________________ 19

   APPENDIX C
      NASA IPA Agreements ________________________________ 21

   APPENDIX D
      Management Comments _______________________________ 23

   APPENDIX E
      Report Distribution ___________________________________ 27




REPORT NO. IG-07-019
JULY 18, 2007



                                                                       INTRODUCTION


Background

   The Intergovernmental Personnel Act (IPA) of 1970 (title 5, United States Code, sections
   3371 through 3375) authorizes the temporary assignment of personnel between the
   Federal Government and non-Federal organizations for the mutual benefit of the
   participating organizations. The Act allows for assignments between Federal agencies
   and other governmental, academic, tribal, and eligible non-profit organizations. Civilian
   employees of Federal agencies can serve with non-Federal organizations for a limited
   period without loss of employee rights and benefits. In addition, employees of eligible
   entities may serve in Federal agencies.

   In April 1971, Executive Order 11589 delegated to the Office of Personnel Management
   (OPM) certain authorities of the President under the IPA of 1970. The Code of Federal
   Regulations (C.F.R.), title 5, chapter I, part 334, outlines the regulations governing the
   temporary assignment of personnel under the purview of OPM. In 1997, 5 C.F.R. 334
   was revised to allow Federal agencies to operate IPA programs more efficiently without
   OPM’s oversight of individual agreements.

   OPM, NASA Policies and Regulations. After the IPA C.F.R. was revised in 1997,
   OPM published IPA guidelines (untitled) to assist agencies in their day-to-day
   management of personnel assigned under IPA agreements. The Act and 5 C.F.R. 334 are
   incorporated in NASA Procedural Requirements (NPR) 3300.1A, “Appointment of
   Personnel To/From NASA,” April 8, 2005. NASA also incorporated the OPM guidelines
   in DG-11, “NASA Desk Guide on the Intergovernmental Personnel Act (IPA),” dated
   October 1999, amended August 2004.

   According to NPR 3300.1A, the Center’s Financial Management Officer and the
   Headquarters (HQ) Office of Institutional Planning and Investment, Business
   Management Division are responsible for ensuring that adequate financial safeguards are
   included in the terms of all agreements and that the terms are adhered to by all parties.

   NASA DG-11 states that the intent of the IPA is that assignees should not lose income by
   accepting the assignment. Each IPA agreement provides for the reimbursement of costs,
   such as salary. NASA reimburses the non-Federal entity (IPA home institution) and the
   IPA assignee continues to be paid directly by the IPA home institution. The assignee and
   officials from the appropriate NASA Center and IPA home institution must sign an
   agreement for every assignment.

   NASA IPA Mobility Program Administration. The majority of NASA IPA
   agreements are with academic institutions and non-profit organizations. NASA uses the
   IPA Mobility Program to attract employees with technical and management expertise for
   all of its Mission Directorates and mission support offices, but mostly in areas under the


REPORT NO. IG-07-019                                                                            1
                                                                                              INTRODUCTION

    Science Mission Directorate. NASA IPA agreements are renewable every 2 years and
    can be extended up to a maximum of 6 years.

    Between June 2005 and May 2006, NASA had 145 active IPA agreements with an
    estimated cost of $35.7 million. We reviewed the management of the 121 agreements for
    employees assigned to NASA from non-Federal organizations, with an estimated cost of
    about $267,000 per agreement ($32.3 million total; about $20.5 million annually).
    NASA IPA costs include salary, fringe benefits, travel, extended per diem (subsistence)
    or limited relocation costs, consultant fee loss, and other miscellaneous costs. The
    agreements are authorized at each Center (HQ is considered a Center for IPA agreement
    purposes) and the amounts vary. Administration of these agreements is accomplished by
    NASA personnel, including approving officials (contracting officer’s technical
    representatives) and NASA accounting and disbursement personnel. Although assigned
    to NASA, IPA assignees continue to receive their pay and benefits from their home
    institutions, which bill NASA. See Appendix B for a flowchart of the basic agreement
    process and Appendix C for details, by Center, on agreements and their costs.

    Internal Controls. The following criteria were used to assess NASA’s controls over the
    IPA Mobility Program:

       •   Office of Management and Budget Circular No. A-123, revised June 21, 1995,
           “Management Accountability and Control,” which states:

           Management controls are the organization, policies, and procedures used to
           reasonably ensure that (i) programs achieve their intended results; (ii) resources are
           used consistent with agency mission; (iii) programs and resources are protected from
           waste, fraud, and mismanagement; (iv) laws and regulations are followed; and
           (v) reliable and timely information is obtained, maintained, reported and used for
           decision making.

       •   Government Accountability Office “Standards for Internal Control in the Federal
           Government,” November 1999, which states:

           Control activities are the policies, procedures, techniques, and mechanisms that
           enforce management’s directives, such as the process of adhering to requirements for
           budget development and execution. They help ensure that actions are taken to address
           risks. Control activities are an integral part of an entity’s planning, implementing,
           reviewing, and accountability for stewardship of government resources and achieving
           effective results.




2                                                                                    REPORT NO. IG-07-019
INTRODUCTION


Objectives

   The overall audit objective was to assess the adequacy of internal controls over NASA’s
   IPA Mobility Program. Specifically, we determined whether

      •   NASA had the safeguards necessary to comply with the laws, regulations,
          policies, and procedures related to the IPA Mobility Program, and

      •   NASA managed the IPA Mobility Program effectively and efficiently.

   Our review focused on NASA’s management of the 121 assignments from non-Federal
   organizations. Specifically, we reviewed IPA agreements at NASA HQ and four
   Centers: Ames Research Center, Goddard Space Flight Center, Johnson Space Center,
   and Marshall Space Flight Center. These five Centers authorized about 88 percent of the
   121 active IPA assignments from non-Federal organizations; HQ alone authorized 56 of
   the 121 agreements, or 46 percent. See Appendix A for details of the audit’s scope and
   methodology, our review of internal controls, and a list of prior coverage.




REPORT NO. IG-07-019                                                                         3
                                                                                         RESULTS



                                                        FINDING A: INADEQUATE
                                                       CONTROLS TO SAFEGUARD
                                                      NASA IPA EXPENDITURES
                                                       AND ENSURE COMPLIANCE

           NASA’s internal controls for evaluating and approving costs associated with the IPA
           Mobility Program were inadequate to ensure that expenditures of about $20.5 million
           annually were properly recorded and accounted for. NASA’s evaluation of IPA
           agreement costs was inadequate because NASA lacked Agency-wide guidance
           requiring verification of invoiced costs to ensure that expenditures made against an
           IPA agreement are supported, reasonable, and allowable. Specifically, NASA did
           not require program personnel to obtain supporting documentation for invoiced costs
           and did not require IPA invoice reviews. In addition, NASA IPA practices did not
           comply with NASA Federal Travel Regulation Supplement (NFTRS) for managing
           travel and analyzing extended per diem costs. As a result, NASA was not properly
           protecting and accounting for Government resources in relation to IPA expenditures
           because of its inadequate internal controls. In addition, noncompliance with NASA
           travel policies results in a higher risk of fraud, waste, and abuse.


NASA Regulations and Guidance Applicable to the IPA Mobility
 Program

    NASA IPA guidance contained in DG-11, section III.F, provides information related to
    allowable salaries, benefits, travel, extended per diem, relocation, and indirect (general
    and administrative) costs. The majority of NASA IPA costs are in these cost categories
    (listed in Appendix C). However, DG-11 does not advise on the allowability of other
    costs, such as those for supplies and incidentals. OPM, in its guidelines that assist
    agencies in their day-to-day management of the mobility program, state that supplies and
    other miscellaneous costs should be prohibited.

    NASA IPA Travel Guidance. NASA DG-11, section VI.D, states that an IPA assignee
    to NASA who must travel away from the location of the assignment to perform official
    business may be reimbursed travel expenses, as would be the case for a Federal
    employee. In addition, DG-11 states that reimbursements should be limited to those that
    Federal employees can claim under the Federal Travel Regulation (FTR). The FTR
    states that individuals must provide any additional information an agency requires.

    NASA Travel Policies and Controls. NFTRS addresses NASA-specific policies and
    procedures. NFTRS, as stated in NASA’s Financial Management Requirements,
    Volume 12, Appendix A (effective April 2005), requires NASA travelers, authorizing
    and approving officials, and financial management personnel to be familiar with the
    provisions of the FTR. NFTRS sections 301-50.2 and 301-51.1 require using the services
    of the travel management center to make travel arrangements and require the use of the


4                                                                         REPORT NO. IG-07-019
RESULTS

   Government travel charge card for most expenses. NFTRS section 301-52.2 states that
   “travel claims must be recorded on a travel voucher within the Agency-wide electronic
   travel system,” which is the Travel Manager system.


NASA Lacked Internal Controls to Validate IPA Expenditures

   NASA DG-11 provides guidance and procedures on initiating, processing, and approving
   IPA agreements. However, NASA internal controls for evaluating and approving costs
   associated with the IPA Mobility Program were inadequate to ensure that expenditures
   were properly recorded and accounted for. NASA policies did not require personnel to
   obtain supporting documentation for invoiced costs. During our review, we observed
   that NASA Centers received invoices periodically (monthly, quarterly) from IPA home
   institutions for costs incurred under the agreements. Upon receipt, the NASA Center’s
   finance or technical organization compared each invoice’s costs with the agreement’s
   budget limit. The IPA assignee’s technical organization representative (usually a NASA
   employee) then conducted a cursory review for obvious errors.

   After reviewing the five Centers’ processes for approving invoiced IPA costs, we
   determined that NASA controls were inadequate to ensure that costs had appropriate
   supporting documentation. Therefore, we selected a sample of 21 invoices and requested
   supporting documentation for the invoiced costs from the IPA assignees’ home
   institutions (universities and non-profit entities).1 We used the documentation provided
   to determine whether the invoiced costs were supported, reasonable, allowable, in
   accordance with agreement terms, and compliant with applicable FTR and NFTRS
   guidelines. We found examples of invoices from IPA home institutions that had
   unsupported and noncompliant extended per diem and travel costs; unsupported
   employee benefits; and supplies and services that OPM guidelines suggest prohibiting.
   Those examples are discussed in the following section.


IPA Program Costs Were Unsupported

   There are two general categories of IPA costs: fixed and variable. Fixed costs, such as
   salary and benefits, tend to remain the same over time; variable costs, such as travel,
   extended per diem, and other expenses, depend on certain events, such as a travel
   requirement, and vary over time. For fixed IPA costs, the Agency needs controls to
   ensure that these costs are legitimate and reasonable. Variable costs need controls over
   each event to ensure that the event has occurred and that the associated costs are
   authorized and allowable.



   1
       Our sample was not a random sample; it was based on invoices that included travel costs, extended per
       diem, and other miscellaneous costs. The 21 invoices were for 19 different IPA assignees from 15 IPA
       home institutions.



REPORT NO. IG-07-019                                                                                           5
                                                                                                        RESULTS

    We reviewed 121 IPA agreements at an annual estimated cost of $20.5 million; annual
    costs for the 106 agreements authorized at the five Centers that we visited were about
    $18.8 million annually. Of the $18.8 million, $15.6 million was for salary and benefits
    (see Appendix C). After IPA agreements are made, NASA needs to review invoiced
    fixed costs (salary and benefits) for consistency and legitimacy. The invoiced variable
    costs (travel, extended per diem, and other expenses) need controls over each occurrence
    and the associated costs.

    Fixed Costs Invoiced. NASA personnel did not obtain any supporting documentation
    for invoiced salary and benefit costs or compare the invoiced costs to the costs in the
    agreements.

    At Marshall Space Flight Center, one university billed NASA for an IPA assignee’s
    salary plus an estimate for the assignee’s pay for vacation and sick leave. However, we
    found that this university’s policy was to include these benefits in the salary amount.
    NASA’s payment of about $30,000 for the estimated vacation and sick leave pay was a
    duplication of what was already included in the salary. Although the agreement had
    obligated funding for the estimated $30,000 leave pay and the Center authorized
    payments for portions of that amount, the Act prohibits payments in excess of actual and
    allowable costs expended. We discussed this issue with NASA representatives, who
    initiated actions to follow up with the university.

    On two invoices for separate IPA assignees, a non-profit institution billed NASA $10,500
    for benefit costs that were applied to extended per diem costs. However, the two
    assignees’ respective IPA agreements stipulate that benefit costs only be applied to
    salary. In addition, the home institution submitted a single amount on each invoice,
    combining all costs (both fixed and variable), giving NASA no way of evaluating the
    consistency of actual costs as compared to the IPA agreement.

    Variable Costs Invoiced. NASA lacked procedures to validate the occurrence and
    allowability of variable IPA costs (travel, extended per diem, and other expenses such as
    supplies). For variable costs, IPA home institutions submitted invoices to NASA without
    supporting documentation, travel vouchers, or receipts for lodging, transportation, and
    supplies.

    The FTR states that individuals must provide information an agency requires, which
    NASA identifies in NFTRS. For instance, NFTRS requires the use of the Travel
    Manager system to record travel claims and extended per diem.

    However, NASA IPA guidance and procedures do not comply with NFTRS policies
    concerning the use of the travel management center2 and the Travel Manager system for
    arranging, reviewing, and approving travel and extended per diem costs. We found that
    Ames Research Center complied with NASA travel policies. However, HQ, Goddard
    Space Flight Center, Johnson Space Center, and Marshall Space Flight Center did not

    2
        NFTRS sections 301-50.2 and 301-51.1 require using the services of the travel management center to
        make travel arrangements and require the use of the Government travel charge card for most expenses.



6                                                                                       REPORT NO. IG-07-019
RESULTS

   comply with NASA travel policies; personnel at these Centers had not verified that
   invoiced costs had actually been incurred or that the costs were in compliance with
   NASA travel policies. Specifically, these four Centers did not require the use of Travel
   Manager to authorize and process IPA assignee travel. In addition, the four Centers did
   not have any documents to support the IPA travel costs. Consequently, the four Centers
   relied on the IPA home institutions to validate that the IPA assignees’ travel occurred and
   was authorized. For the 121 NASA IPA agreements that we identified, IPA assignee
   travel costs totaled about $1.6 million per year (see Appendix C).

   During our review, we found that NASA paid invoices that included travel costs as a
   fixed cost. Our sample included a university that did not provide any supporting
   documentation for travel costs. The monthly invoice was for exactly 1/12 of the
   estimated travel costs included in the agreements (estimated at $5,000). By paying a
   fixed monthly amount, NASA had no assurance that travel had occurred and, if so, had
   complied with the FTR.

   Other universities’ support for invoiced travel costs in our sample showed payment for
   first-class airfares and per diem in excess of the rates prescribed by the General Services
   Administration. We found no explanation for these costs, which should be justified per
   the FTR. In addition, we found invoices that included questionable items, such as
   conference fees added to travel costs. Per the FTR, conference fees are not reimbursable
   until after approval of the travel costs.

   Similar to IPA travel guidance, IPA guidance and procedures for extended per diem do
   not comply with NFTRS, which requires recording extended per diem costs in Travel
   Manager. In addition, NASA personnel did not obtain any supporting documentation for
   IPA extended per diem costs. Certain costs (such as lodging and utilities) at the extended
   temporary duty location must be supported with receipts. Further, extended per diem
   amounts must be adjusted when an IPA assignee travels. For the 121 NASA IPA
   agreements that we identified, IPA assignee extended per diem costs totaled about
   $1.1 million per year (see Appendix C).

   Of the 21 invoices in our sample, 13 invoices included extended per diem costs. Travel
   Manager was not used to process any of the 13 invoices’ costs, and 10 did not include
   any receipts, as required by NFTRS. For 8 of the 13 invoices, the institutions did not
   adjust per diem as required by NFTRS, which states that the extended per diem rate3 is to
   be suspended during times of authorized travel.

   Furthermore, NASA IPA guidance, DG-11, section VI.C, states that the Center should
   perform a cost-effectiveness analysis when considering extended per diem versus limited
   relocation costs. We found that the Centers we visited were not performing cost analyses
   before allowing extended per diem costs.



   3
       Extended per diem, for assignments of more than 120 days, is 55 percent of the maximum per diem rate
       for that location.



REPORT NO. IG-07-019                                                                                          7
                                                                                          RESULTS

    NASA lacks guidance on the allowability of other costs, such as supplies and incidentals,
    which the OPM guidelines suggest prohibiting. For the 121 IPA agreements that we
    identified, NASA allotted about $100,000 per year for IPA assignees’ incidental costs
    (see Appendix C).

    In our sample of 21 invoices, 3 invoices from a non-profit institution included charges for
    cell phones, messaging, file services, and network services, which the OPM guidelines
    suggest prohibiting. The guidelines state that, for reimbursement for assignments,
    “[a]gencies should not authorize for indirect or administrative costs associated with the
    assignment.” The guidelines also state that “[o]ther prohibited costs include tuition
    credits, office space and furnishings, supplies, and staff support and computer time.”
    These costs, which were included on the 3 invoices, ranged from $600 to $900 per
    invoice.

    In addition, we found invoices that included other supplies and support costs, such as
    software, postage, and an audit fee. As a result of our questioning, one institution did
    agree to return $554 that NASA should not have paid.


NASA’s IPA Funds at Risk

    NASA was not properly protecting and accounting for Government resources used
    toward IPA expenditures because of its inadequate internal controls. NASA did not
    request, review, or maintain supporting evidence for the invoiced costs, and IPA home
    institutions’ invoices included unsupported costs and questionable charges. As a result,
    NASA was at an increased risk of fraud, waste, and abuse. NASA management needs to
    establish procedures for reviewing and supporting IPA invoices to minimize the risks of
    fraud, waste, and abuse and the associated costs.

    In addition, the IPA guidance and practices (excluding Ames Research Center’s practice)
    did not require compliance with NASA travel policies. NASA personnel did not verify
    travel costs to ensure the costs were authorized and allowable per the FTR. Had NASA
    used the Travel Manager system to control IPA travel and extended per diem costs,
    NASA would have separated most of the variable costs from the IPA invoicing process,
    resulting in a more efficient reimbursement process. Using Travel Manager and the
    travel management center would provide NASA additional controls on IPA travel costs
    by ensuring that costs that are actually incurred are authorized and allowable. These
    added controls would result in monetary benefits, but we did not attempt to quantify the
    potential monetary benefits.




8                                                                           REPORT NO. IG-07-019
RESULTS


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that the Assistant Administrator for Human Capital
Management revise NPR 3300.1A, chapter 6, “Intergovernmental Personnel Act (IPA)
Assignments,” and NASA DG-11 to

   a. clarify the criteria for reasonable and allowable IPA agreement costs for fringe
      benefits, salary, and other miscellaneous and incidental costs (in concordance
      with OPM guidelines).

   b. establish procedures with appropriate NASA officials for reviewing invoices
      containing IPA costs and require that NASA personnel obtain and maintain
      independent supporting documentation for validating invoiced costs.

   c. require compliance with NFTRS and NASA travel procedures for use of the
      travel management center and the Travel Manager system to obtain travel
      arrangements, travel authorizations, approvals, and reimbursements, to include
      extended per diem costs.

   d. require compliance with NFTRS and, for NPR 3300.1A, NASA DG-11, and
      require documentation for cost analyses used in determining whether to pay
      extended per diem or limited relocation costs.

   Management’s Response. The Assistant Administrator concurred, stating that the
   guidelines in the IPA Desk Guide (DG) would be updated no later than December 31,
   2007. The update will clarify NASA guidelines to ensure consistency with OPM
   guidelines with respect to costs for fringe benefits, salary, and other miscellaneous and
   incidental costs.

   The Assistant Administrator stated that the Office of Human Capital Management will
   partner with the Chief Financial Officer by September 30, 2007, on establishing
   procedures for reviewing invoices containing IPA costs, noting that the Chief Financial
   Officer has Agency responsibility for finance and procurement. Additionally, the Office
   of Human Capital Management will ensure that the procedures outline the required
   documentation for validating invoiced costs.

   The Office of Human Capital Management will also require that individuals on IPA
   assignments to NASA comply with NFTRS and NASA travel procedures as well as
   ensure that the applicable NPR and DG require compliance with NFTRS, and require
   appropriate documentation regarding the payment of extended per diem or limited
   relocation costs.

   Evaluation of Management’s Response. Management’s comments are responsive. The
   recommendations are resolved, but will remain open pending verification of the revisions
   to NPR 3300.1A, chapter 6, and NASA DG-11.



REPORT NO. IG-07-019                                                                           9
                                                                                       RESULTS

Recommendation 2. We recommended that Marshall Space Flight Center’s Chief
Financial Officer review the IPA agreement and payments to the university discussed in the
“Fixed Costs Invoiced” section on page 6 and initiate actions to recoup the $30,000
duplicate payment as well as any other billed costs that were unreasonable, unsupported,
inconsistent with the university’s policies, or in excess of the university’s actual
expenditures.

     Management’s Response. The Assistant Administrator for Human Capital Management
     concurred, stating that the Marshall Office of the Chief Financial Officer and Office of
     Human Capital are coordinating with representatives from the university to assess
     whether there was a $30,000 duplicate payment as well as evaluate the IPA for the issues
     noted in the recommendation. Management will provide documentation concerning the
     review of the IPA agreement by August 31, 2007. The Assistant Administrator also
     described several initiatives undertaken to improve internal controls to safeguard IPA
     expenditures.

     Evaluation of Management’s Response. Management’s comments are responsive. The
     recommendation is resolved, but will remain open pending our review of Marshall’s
     documentation.




10                                                                       REPORT NO. IG-07-019
RESULTS



                                                 FINDING B: NASA MIGHT BE
                                                     ABLE TO LOWER ITS IPA
                                                   MOBILITY PROGRAM COSTS

          NASA might be able to lower the costs of its IPA Mobility Program by adopting
          practices that other Federal agencies established in implementing OPM guidelines.
          We estimate that NASA could avoid costs of about $1.3 million to $4.2 million
          annually by implementing policies and procedures that require cost-sharing, disallow
          indirect costs, and place a time limit on extended per diem.


Comparison of NASA and Other Agencies’ IPA Programs

   We selected six Federal agencies and reviewed their IPA program and policies. The
   purpose of our review was to identify practices that could improve the cost-effectiveness
   of NASA’s IPA Mobility Program. We selected the following six agencies for review
   because each has a scientific research program:

      •   National Science Foundation
      •   National Institute of Standards and Technology, Department of Commerce
      •   National Institutes of Health, Department of Health and Human Services
      •   U.S. Department of Agriculture
      •   Department of Energy
      •   Environmental Protection Agency

   We found that the six agencies had cost control practices, which follow OPM guidelines,
   and identified three specific areas that we believe NASA could benefit from adopting.


Agency Practices and OPM Guidelines for Controlling IPA Costs

   The areas that we identified for NASA’s consideration were to require cost-sharing, to
   disallow indirect costs, and to place time limits on extended per diem.

   Cost-Sharing. OPM guidelines and the Act specify that agreements should be made for
   the mutual benefit of participating organizations. OPM guidelines also state that cost-
   sharing arrangements should be based on the extent to which the participating
   organizations benefit from the assignment. The larger share of the costs should be
   absorbed by the organization that benefits most from the assignment. NASA DG-11
   states that NASA and the non-Federal entity must determine the percentage of costs each
   organization will pay. For the NASA IPA agreements that we reviewed, there was no
   cost-sharing and NASA paid the IPA home institutions 100 percent of their costs.




REPORT NO. IG-07-019                                                                           11
                                                                                         RESULTS

     During our review, we found that two agencies, the Department of Energy and the
     National Science Foundation, negotiate with participating IPA home institutions to share
     a minimum of 15 percent of the IPA costs. Both agencies require justification for a lesser
     rate because it is expected that assignments will be made on a shared cost basis. These
     negotiations are reflected in the individual IPA agreements.

     For the 121 agreements for personnel assigned to NASA from non-Federal organizations,
     the cost-sharing practice would have resulted in avoiding annual costs of between about
     $200,000 (1 percent cost-sharing) and $3 million (15 percent cost-sharing). The annual
     cost avoidance amounts were based on the annualized value of the 121 agreements (as
     shown in Appendix C, Table 2), which totaled $20,453,260: 1 percent of that amount is
     $204,532; 15 percent is $3,067,989. Projecting those amounts over 3 years yields cost
     avoidance ranging from $613,596 (1 percent cost-sharing) to $9,203,967 (15 percent
     cost-sharing).

     Indirect Costs. OPM guidelines state that agencies should not reimburse indirect
     administrative costs associated with IPA agreements. All six agencies do not allow
     indirect costs to be included in their IPA agreements. However, DG-11 allows for
     reimbursement of IPA home institutions’ indirect costs, which NASA defines as
     applicable general and administrative costs associated with IPA assignees. DG-11 states
     that discussions with OPM officials indicated that OPM guidelines were not intended to
     prohibit reimbursement of indirect costs. Thus, DG-11 allows indirect costs to be paid if
     requested by the IPA assignees’ home institutions. We estimate that NASA could avoid
     costs of about $410,000 a year by eliminating its practice of reimbursing IPA home
     institutions for indirect costs.

     Annualized indirect costs authorized in the 121 IPA agreements totaled $410,272:
     $365,167 at the five Centers we visited and $45,105 at the other Centers (see
     Appendix C, Tables 3 and 4). Projecting that amount over 3 years yields cost avoidance
     of $1,230,813.

     Extended Per Diem Costs. OPM guidelines state that extended per diem is meant for
     short assignments and that agencies should not authorize it for an IPA assignment
     expected to last more than 1 year or for an indefinite period. Our review found that three
     agencies limited extended per diem to a maximum of 2 years in implementing OPM
     guidelines. The Department of Energy and the National Science Foundation limited per
     diem to 2 years, while the National Institute of Standards and Technology limited it to no
     more than 1 year.

     NASA DG-11, section VI.C, states that extended per diem should not normally be
     authorized for assignments that go beyond a year. This is vague compared to the OPM
     guidelines and does not set a clear time limit, as have other Federal agencies. Lacking
     such a control, NASA can pay this cost for the duration of an assignment, which can last
     6 years. For example, one IPA assignee at NASA HQ has an IPA agreement that
     authorizes extended per diem for more than 5 years (from 2003 through 2008). We
     estimate NASA’s cost for this assignee’s per diem to be about $214,000, or about
     $40,000 per year.


12                                                                         REPORT NO. IG-07-019
RESULTS

   Of the 121 IPA agreements for assignees from non-Federal organizations, 56 were
   authorized by NASA HQ. Of those 56, we identified 18 that included extended per diem
   for more than 1 year. Although per diem rates vary with time and location, we based our
   estimated average of $40,000 per year for the 18 assignees on the per diem rate
   authorized in the HQ agreements. As a result, we estimate cost avoidance at $720,000
   annually and $2,160,000 over 3 years.


Summary of Estimated Potential Monetary Benefits from
  Implementing Practices that Follow OPM Guidelines

   We estimate that NASA could avoid costs of about $4 million to $12.6 million over
   3 years if the Agency implements practices that follow OPM guidelines, as other Federal
   agencies discussed in this report have done. That estimate is the projection of annual
   costs avoided (about $1.3 million to $4.2 million) that we determined based on the 121
   IPA agreements that we identified (see the following figure).




REPORT NO. IG-07-019                                                                         13
                                                                                                        RESULTS




                                Estimated Range of Potential Monetary Benefits

            $1.3 million annually                            $4.2 million annually

                                    $204,532                                              $410,272

                                                                    $3,067,989
                $720,000
                                                                                               $720,000

                                           $410,272




               Require Cost-Sharing (1 percent)                 Require Cost-Sharing (15 percent)
               Eliminate Indirect Costs                         Eliminate Indirect Costs
               Limit Per Diem (1 year)                          Limit Per Diem (1 year)


            $4 million over 3 years                          $12.6 million over 3 years

                                    $613,596                                               $1,230,813

                                                                  $9,203,967
                $2,160,000
                                           $1,230,813                                          $2,160,000




Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 3. a. We recommended that the Assistant Administrator for Human
Capital Management consider revising NPR 3300.1A, chapter 6, to establish policies and
procedures requiring IPA agreements to include cost-sharing. The procedures should
stipulate that IPA home institutions cover up to 15 percent of the total proposed costs and
require that NASA provide detailed explanations to justify no cost-sharing and obtain
NASA senior management approval.

     Management’s Response. The Assistant Administrator partially concurred, stating that
     NASA should make a good faith effort to encourage cost-sharing negotiations with the
     participating organizations. Effective with the update to the IPA Desk Guide (no later
     than December 31, 2007), the Office of Human Capital Management will require that all



14                                                                               REPORT NO. IG-07-019
RESULTS

   new IPA agreements negotiate cost-sharing arrangements to cover at least 10 percent of
   the total proposed costs.

   Evaluation of Management’s Response. Management’s planned action is responsive
   and may result in cost avoidance of $6.1 million over the next 3 years ($2 million
   annually). The recommendation is resolved, but will remain open pending verification of
   the revisions to NPR 3300.1A, chapter 6.

Recommendation 3.b. We recommended that the Assistant Administrator for Human
Capital Management consider revising NPR 3300.1A, chapter 6, to disallow reimbursement
of indirect costs in IPA agreements. Remove sections 6.6.1 and 6.6.2 and update DG-11 to
reflect the change in policy.

   Management’s Response. The Assistant Administrator nonconcurred, stating that her
   office has contacted OPM to discuss the issue of reimbursement of indirect or
   administrative costs and to request clarification and further guidance on this issue.

   Evaluation of Management’s Response. Management’s planned action is responsive.
   Our recommendation was for management to consider disallowing indirect costs since
   these costs are generally not paid for by other Federal agencies. DG-11 states that
   discussions with OPM officials indicated that OPM guidelines were not intended to
   prohibit reimbursement of indirect costs. We would encourage management to discuss
   with OPM officials the practice of disallowing indirect costs; however, we consider the
   recommendation resolved and closed.

Recommendation 3.c. We recommended that the Assistant Administrator for Human
Capital Management consider revising NPR 3300.1A, chapter 6, to limit extended per diem
to 1 year per agreement, including extensions. Revise DG-11 to include the 1-year limit.
This should be implemented in conjunction with Recommendation 1.d (requiring
documented evidence of cost comparisons between extended per diem and limited
relocation) and include cost limits for extended per diem authorizations.

   Management’s Response. The Assistant Administrator partially concurred, stating that
   the Office of Human Capital Management will revise its IPA DG to limit extended per
   diem to 2 years per agreement, to include modifications and extensions, as well as
   cost limits for extended per diem authorizations.

   Evaluation of Management’s Response. Management’s planned actions are responsive
   and may result in cost avoidance of $840,000 over the next 3 years, or $280,000 annually
   (based on our estimated average of $40,000 per year for the seven assignees on the per
   diem rate authorized in the HQ agreements). The recommendation is resolved, but will
   remain open pending verification of the revisions to NPR 3300.1A, chapter 6, and
   NASA DG-11.




REPORT NO. IG-07-019                                                                          15
APPENDIXES



                                                                          APPENDIX A


Scope and Methodology

   We performed work at NASA HQ and four NASA Centers: Ames Research Center,
   Goddard Space Flight Center, Johnson Space Center, and Marshall Space Flight Center.
   During our audit work, we reviewed NASA internal controls over the IPA Mobility
   Program. We interviewed NASA personnel to identify NASA policies and procedures
   related to the IPA Mobility Program. We reviewed applicable OPM guidelines and
   5 C.F.R. 334. We also interviewed personnel from non-Federal participating
   organizations to obtain an understanding of their invoice processes and to obtain
   supporting documentation for invoices submitted to NASA that we selected for additional
   review.

   We selected NASA HQ, Ames, Goddard, Johnson, and Marshall for this audit because
   these Centers authorized 88 percent of the 121 active IPA agreements for assignments
   from non-Federal organizations. In addition, we selected 21 HQ and Marshall invoices
   for a review of supporting documentation using the following criteria:
      •   high agreement budget,
      •   travel card usage,
      •   high travel costs,
      •   high per diem costs,
      •   high salary costs, or
      •   former NASA employee.

   We reviewed the 21 IPA agreements’ invoices to determine whether the records of the
   participating IPA home institutions adequately supported their costs. Our findings are
   not projectable, as the sample was not selected randomly.

   We also compared NASA’s policies and procedures with those of other Federal agencies
   to determine whether NASA could apply cost-saving practices used by these agencies to
   reduce program costs. For our comparison, we selected the following six agencies
   because each has a scientific research program:

      •   National Institute of Standards and Technology
      •   National Science Foundation
      •   National Institutes of Health
      •   U.S. Department of Agriculture
      •   Department of Energy
      •   Environmental Protection Agency


REPORT NO. IG-07-019                                                                         17
                                                                                    APPENDIX A

     We performed this audit from April 2006 through April 2007 in accordance with
     generally accepted government auditing standards. We limited our scope to address
     NASA’s management of the 121 IPA agreements for employees assigned to NASA from
     non-Federal organizations; we did not evaluate the 24 agreements for NASA employees
     assigned to a non-Federal organization. We did not use computer-processed data to
     perform this audit.


Review of Internal Controls

     We reviewed NASA policies and procedures and internal controls related to the IPA
     Mobility Program. We identified the weaknesses discussed in Finding A of this report.
     Our recommendations, if implemented, will improve controls over the IPA Mobility
     Program.


Prior Coverage

     During the last 5 years, the Government Accountability Office (GAO), the NASA OIG,
     and the National Science Foundation (NSF) have issued three reports of particular
     relevance to the subject of this report. Unrestricted reports can be accessed over the
     Internet at http://www.gao.gov (GAO),
     http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html (NASA), and
     http://www.nsf.gov/oig/auditpubs.jsp (NSF).

     Government Accountability Office

     “National Science Foundation: External Assignments Under the Intergovernmental
     Personnel Act’s Mobility Program” (GAO-01-1016, September 24, 2001)

     National Aeronautics and Space Administration

     “Intergovernmental Personnel Act Agreements” (A-03-005-00, July 31, 2003)

     National Science Foundation

     “Audit of Costs Associated with Visiting Personnel” (OIG 04-2-006, July 23, 2004)




18                                                                       REPORT NO. IG-07-019
APPENDIX B



                                                                        IPA PROCESS
                                                                         FLOWCHART


   The IPA Mobility Program is decentralized, with each Center separately managing its
   own IPA program.

   The basic process followed at each Center, including Headquarters, is that the requesting
   office or directorate seeking a particular IPA candidate completes, along with the
   assignee and the home institution, NASA Official Form (OF) 69, “Assignment
   Agreement.” The completed agreement is submitted to the Center’s Human Resource
   (HR) Office for review and coordination. The HR Office sends the draft agreement to
   NASA’s Office of the General Counsel for review. In addition, a budget review is
   performed by the appropriate (Center) budget office. The purpose of these reviews is to
   verify that the proposed agreement follows OPM guidelines and NASA IPA guidance as
   well as any applicable Center policy.

   After the various reviews and approvals, the agreement is returned to the HR Office
   which routes the agreement for signature by the appropriate NASA approving officials,
   the IPA assignee, and the IPA home institution.

   Once the agreement is signed and approved, the HR Office distributes copies of the
   agreement to all parties in the agreement and notifies the NASA Human Capital Office.
   A copy is also provided to the Center’s Accounts Payable Department for funding
   allocation to process invoice payments.

   The following flowchart outlines the basic process.




REPORT NO. IG-07-019                                                                           19
                                                                                     APPENDIX B

                         IPA Process Flowchart


       Center                      Center HR
     Requesting                   Management
       Office


                  Center Budget                   NASA’s
                    Approval                      General
                     Process                      Counsel


                                   Center HR
                                  Management




              IPA Candidate                        Home Institution
                                               (Non-Profit or Educational
                                                      Institution)




                                   Center HR
                                  Management




       Accounts Payable           Requesting            NASA Human
         Department                 Office              Capital Office




20                                                                          REPORT NO. IG-07-019
APPENDIX C




                                                       NASA IPA AGREEMENTS


  During FYs 2005 and 2006 (specifically, June 1, 2005, through May 31, 2006), NASA
  had 145 active IPA agreements, with an estimated cost (budget limit) of $35.7 million.
  The following tables provide details on the agreements.



                                  Table 1. NASA IPA Agreements

                                                     Number of
    Type of Agreement                                Agreements           Total Budget Limit
     For a non-Federal employee to be assigned           121                  $32,271,059
      to NASA
     For a NASA employee to be assigned                   24                    3,392,619
      to a non-Federal organization
      Total                                              145                  $35,663,678




                Table 2. IPA Agreements for Assignees from Non-Federal Organizations

                                  Number of            Annualized Value              Total
    Center                        Agreements       (Estimated Annual Costs)       Budget Limit
     Ames Research Center              19                $ 4,062,079              $ 8,616,679
     Glenn Research Center              3                      442,193                617,392
     Goddard                            6                      972,162                968,477
     HQ                                56                 10,486,898               15,566,053
     Johnson                            6                      850,119                930,136
     Kennedy Space Center               5                      419,559                605,105
     Langley Research Center            3                      272,498                405,719
     Marshall                          19                   2,437,243               3,607,714
     Stennis Space Center               4                      510,509                953,784
      Total                           121                $20,453,260              $32,271,059




REPORT NO. IG-07-019                                                                             21
                                                                                                   APPENDIX C




                                  Table 3. Itemization of Annualized Values
                       of IPA Agreements for Assignees from Non-Federal Organizations
                                   at the Five Centers Selected for Review

     Cost Element               Ames       Goddard               HQ          Johnson      Marshall           Total
     Salary                  $2,685,581    $615,775        $6,197,111        $635,800    $1,712,233 $11,846,500
     Fringe benefits          1,019,828     210,111         1,952,220         161,126         438,098       3,781,383
     Per diem/subsistence       20,000         72,000           970,643         17,095          30,781      1,110,519
     Travel                    116,951         74,276       1,157,620           36,098        162,311       1,547,256
     Indirect                  147,522             –            182,190             –           35,455       365,167
     Lost consulting fees       18,461             –                   –            –                –        18,461
     Other (supplies)           48,018             –                   –            –           55,865       103,883
     Other (relocation)           5,718            –             27,114             –            2,500        35,332
      Total                  $4,062,079    $972,162       $10,486,898        $850,119    $2,437,243 $18,808,501




                               Table 4. Itemization of Annualized Values
                    of IPA Agreements for Assignees from Non-Federal Organizations
                              at the Four Centers Not Selected for Review

     Cost Element                  Glenn         Kennedy              Langley       Stennis          Total
      Salary                      $374,015       $346,611             $199,018     $398,019        $1,317,663
      Fringe benefits                32,846        54,902               27,488         66,994            182,230
      Per diem/subsistence                 –               –                  –            –                   0
      Travel                         22,637             9,023           35,021         29,441             96,122
      Indirect                       10,057             9,023              9,970       16,055             45,105
      Lost consulting fees                 –               –                  –            –                   0
      Other (supplies)                 2,638               –               1,001           –               3,639
      Other (relocation)                   –               –                  –            –                   0
       Total                      $442,193       $419,559             $272,498     $510,509        $1,644,759




22                                                                                     REPORT NO. IG-07-019
APPENDIX D




                       MANAGEMENT COMMENTS




REPORT NO. IG-07-019                         23
              APPENDIX D




                      name of
                      university
                      redacted
                      FOIA exemp-
                      tion b(6)




24   REPORT NO. IG-07-019
APPENDIX D




REPORT NO. IG-07-019   25
              APPENDIX D




26   REPORT NO. IG-07-019
APPENDIX E



                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Associate Administrator for Institutions and Management
     Assistant Administrator for Human Capital Management
     Executive Director, NASA Shared Services Center

NASA Centers

  Director, Ames Research Center
  Director, Dryden Flight Research Center
  Director, John H. Glenn Research Center at Lewis Field
  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  Director, Lyndon B. Johnson Space Center
  Director, John F. Kennedy Space Center
     Chief Counsel, John F. Kennedy Space Center
  Director, Langley Research Center
  Director, George C. Marshall Space Flight Center
     Chief Financial Officer, George C. Marshall Space Flight Center
  Director, John C. Stennis Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Office of Personnel Management
      Acting Associate Director, Human Capital Leadership & Merit System
        Accountability Division
      Deputy Associate Director, Center for Human Resources
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management




REPORT NO. IG-07-019                                                                27
                                                                            APPENDIX E


Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Senate Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Senate Subcommittee on Space, Aeronautics, and Related Sciences
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        House Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        House Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        House Subcommittee on Investigations and Oversight
        House Subcommittee on Space and Aeronautics




28                                                                REPORT NO. IG-07-019
Major Contributors to the Report:
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Michael Niedringhaus, Project Manager
   Stephen Siu, Team Lead
   Anh Doan, Auditor
   Kenneth Colon, Auditor




REPORT NO. IG-07-019                                                         29
                                                                                   JULY 18, 2007
                                                                  REPORT NO. IG-07-019




                                                                           OFFICE OF AUDITS

                                                           OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html to obtain additional copies of this
report, or contact the Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Quality
Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://www.hq.nasa.gov/office/oig/hq/hotline.html#form.
The identity of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.
